No.
IN THE
i

Supreme Court of the United States

\

m i

:pii its Im

VP'U :j ::j Vj b U b“3

WARREN E. ROSENFELD
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit

FILED
DEC 1 6 2020
SUpnEMECOURTLn SK

PETITION FOR A WRIT OF CERTIORARI

Warren E. Rosenfeld
5817 Kingsbrook Drive
Plano, Texas 75093
(214) 878-6240
werosenfeld@outlook.com
Pro se Petitioner
LEGAL PRINTERS LLC • Washington, DC • 202-747-2400 • legalprinters.com

QUESTIONS PRESENTED
1. Whether the Eleventh Circuit's denial of Petitioner's
request for a certificate of appealability pursuant to 28
U.S.C. § 2253(c) was unreasonable and conflicts with
the standards for a certificate of appealability to issue
as set forth in Miller-El v. Cockrell, 537 U.S. 322 (2003),
where Petitioner demonstrated a substantial showing
of the denial of a constitutional right regarding
whether or not the District Court of the Middle District
of Florida had Article III subject-matter jurisdiction
over Petitioner's case.
2. Whether an Assistant United States Attorney
appointed to office by the Department of Justice must
be appointed by the Attorney General.
3. Whether an appointee must have a Presidential
Commission to complete their appointment to office as
an Assistant United States Attorney.
4. Whether a prior oath of office from an original
appointment as an Officer of the United States carries
over to new appointments.
5. Whether an Assistant United States Attorney has a
permanent appointment to office, or must be
reappointed after their appointing officer vacates
office or there is a new Chief Executive.

ii

6. Whether conclusive competent proof of the investiture
to office as an AUSA requires copies of an appointee's:
(1) current letter of appointment from the Attorney
General; (2] current Presidential Commission for the
appointment; and (3) current oath of office.
7. Whether the Eleventh Circuit's denial of Petitioner's
request for a certificate of appealability pursuant to 28
U.S.C. § 2253(c) was unreasonable and conflicts with
the standards for a certificate of appealability to issue
as set forth in Miller-EI, where Petitioner
demonstrated a substantial showing of the denial of
the Sixth Amendment right to counsel, when
Petitioner's counsel neglected to act on the district
court's lack of Article III subject-matter jurisdiction.
8. Whether the Eleventh Circuit's denial of Petitioner's
request for a certificate of appealability pursuant to 28
U.S.C. § 2253(c) was unreasonable and conflicts with
the standards for a certificate of appealability to issue
as set forth in Miller-El, where Petitioner
demonstrated a substantial showing of the denial of
the Sixth Amendment right to counsel when
Petitioner's counsel, in violation of attorney-client
privilege, provided confidential documents containing
the essence of Petitioner's defense to the government
attorneys prior to trial.

iii

PARTIES TO THE PROCEEDING
All parties to the proceeding are named in the
caption.

iv
PROCEEDINGS DIRECTLY RELATED
TO THIS CASE
United States v. Warren Rosenfeld, No. 3:14-cr-00073MMH-JRK-2, U.S. District Court, Middle District of Florida
(Jacksonville] (judgment December 31, 2015] (trial
proceeding]
United States v. Warren Rosenfeld, No. 16-10039, U.S.
Court of Appeals for the Eleventh Circuit (judgment
January 30, 2018] (direct appeal]
United States v. Warren Rosenfeld, No. 16-10039, U.S.
Court of Appeals for the Eleventh Circuit (judgment
January 30, 2018] (petition for en banc hearing]
Warren Rosenfeld v. United States, No. 3:18-cv-00607MMH-JRK, U.S. District Court, Middle District of Florida
(Jacksonville] (judgment January 24, 2020] (§ 2255
habeas corpus]
Warren Rosenfeld v. United States, No. 20-10321, U.S.
Court of Appeals for the Eleventh Circuit (order August
20, 2020) (certificate of appealability application)
Warren Rosenfeld v. United States, No. 20-10321, U.S.
Court of Appeals for the Eleventh Circuit (order
September 22,2020) (petition for en banc hearing)
Warren Rosenfeld v. United States, United States Supreme
Court (Petition for Writ of Certiorari)

V

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

,i

PARTIES TO THE PROCEEDING

iii

PROCEEDINGS DIRECTLY RELATED TO
THIS CASE................................................

iv

TABLE OF AUTHORITIES

ix

OPINIONS BELOW.

1

JURISDICTION

1

CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

A. Introduction

2

B. Procedural History

3

REASONS FOR GRANTING THE PETITION
I.

4

THE DISTRICT COURT LACKED ARTICLE
III SUBJECT-MATTER JURISDICTION.......

5

A. The Appointment of AUSAs in the DOJ Can
Only be Made by the Attorney General......

9

vi

II.

B. A Presidential Commission is Required to
Complete the Appointment of an AUSA....

15

C. AUSAs Do Not Have Permanent Tenure to
Office as Officers of the United States.......

21

COUNSEL'S ACTIONS CONSTITUTE
INEFFECTIVE ASSISTANCE OF COUNSEL

26

A. Counsel Failed to Address the District
Court's Lack of Jurisdiction..................

26

B. Counsel Failed to Subject the Prosecution's
Case to Meaningful Adversarial Testing......

28

III. THIS CASE IS THE IDEAL VEHICLE TO
RESOLVE THE QUESTIONS PRESENTED

32

A. The Appointments, Oath, and Commissions
Clauses are Fundamental in Maintaining
the Integrity of Article III Jurisdiction.........

32

B. Meaningful Adversarial Testing is Necessary
to Maintain the Integrity of Criminal
Proceedings in the Judiciary...........................

35

CONCLUSION

36

vii
TABLE OF APPENDICES
Page
APPENDIX A: Order of the United States Court
of Appeals for the Eleventh Circuit Denying
Reconsideration and Rehearing En Banc of Order
Denying Certificate of Appealability
[September 22, 2020]............................................. la
APPENDIX B: Order of the United States Court
of Appeals for the Eleventh Circuit Denying
Certificate of Appealability [August 20, 2020]

2a

APPENDIX C: Order of the Middle District of Florida
Denying Motion Under 28 U.S.C.
§ 2255 and Denying Certificate of
Appealability [January 22, 2020]........................

9a

APPENDIX D: Signature Page of Petitioner's
Indictment...............................................

30a

APPENDIX E: FOIA Request for All Documents
for the Appointment of A. Tysen Duva as an
Assistant United States Attorney..................

31a

APPENDIX F: FOIA Request for All Documents
for the Appointment of Karen L. Gable as an
Assistant United States Attorney...................

32a

APPENDIX G: Appointment Affidavits of
A. Tysen Duva....................................

33a

APPENDIX H: Appointment Affidavits of
Karen L. Gable...................................

34a

viii
TABLE OF APPENDICES (continued)
Page
APPENDIX I: DOJ job posting for the permanent
appointment of an AUSA......................................

35a

APPENDIX J: DO} job posting for the term
appointment of an AUSA...........................

36a

APPENDIX K: Constitutional, Statutory, and
Regulatory Provisions Involved............

37a

Appointments Clause,
U.S. Const., Art. II, § 2, cl. 2

37a

Oath Clause,
U.S. Const., Art. VI, cl. 3

37a

Commissions Clause,
U.S. Const., Art. II, § 3

37a

Article III Jurisdiction Clause,
U.S. Const., Art. Ill, § 2.......

38a

5 U.S.C. § 2902(c)

38a

28 U.S.C. § 542

39a

28 U.S.C. § 544,

39a

28 C.F.R. § 0.15

39a

ix
TABLE OF AUTHORITIES
CASES
Already, LLC v. Nike, Inc.,
568 U.S.85 (2013)...
American Fire Casualty Co. v. Finn,
341 U.S.6 (1951).....................

Page(s)

10

8

Arbaugh v. YH Corp.,
546 U.S. 500 (2006)

33, 34

Barefoot v. Estelle,
463 U.S. 880 (1983)

5

Bender v. Williamsport Area School Dist.,
475 U.S. 534 (1986)...........................

8

Buckley v. Valeo,
424 U.S. 1 (1976)

12

De Castro v. Board of Comm.,
322 U.S. 451 (1944).......

24

Dep'tofTransp. v. Ass'n ofAm. Railroads,
135 S. Ct. 1225 (2015).......................
Edmond v. United States,
520 U.S. 651 (1997).
Evans v. Gore,
253 U.S. 245 (1920)

20,32

13,15,25

22

X

TABLE OF AUTHORITIES (continued)
Ex Parte Duncan N. Hennen,
38U.S.230 [1839)........

9,22

Ferri v. Ackerman,
444 U.S. 193 (1979)
Freytag v. Commissioner;
501 U.S. 868 (1991).,

30

12,13,14,15, 33

Hinton v. Alabama,
571 U.S. 263 (2014)
Hobbs v. Blackman,
752 F.2d 1079 (11th Cir. 1985)
Kalaris v. Donovan,
797 F.2d 376 (D.C. Cir. 1983)

26

7

24

Kokkonen v. Guardian Life Ins. Co. ofAmerica,
511 U.S. 376 (1994)..................................

8

Lewis v. Continental Bank Corp.,
494 U.S. 472 (1990)............

6

Linda R.S. v. Richard D.,
410 U.S. 614 (1973)
Lucia v. Sec. & Exch. Comm 'n,
138 S. Ct. 2044 (2018)...
Marbury v. Madison,
5 U.S. 137 (1803)

10

9,16

17,18 .

xi
TABLE OF AUTHORITIES (continued)
McNutt v. GMAC,
298 U.S. 178 (1936)

8

Miller-El v. Cockrell,
537 U.S. 322 (2003)

i, ii, 2, 4, 5

Murphy v. Hunt, 455

U.S. 478,102 S. Ct. 1181 (1982)
Myers v. United States,
272 U.S. 52 (1926)
National Archives v. Favish,
541 U.S. 157 (2004).....

10
25

7

Northern Pipeline Co. v. Marathon Pipe Line Co.,
458 U.S. 50 (1982).........................................

22

O'Donoghue v. United States,
289 U.S. 516 (1933).......

21

Palmore v. United States,
411 U.S. 389 (1973).

22

RuhrgasAG v. Marathon Oil Co.,
526 U.S. 574 (1999)............

34

SEC v. Chenery Corp.,
318 U.S. 80 (1943)

34

Seila Law LLC v. Consumer Financial
Protection Bureau,
No. 19-7, at *7 (June 29, 2020)....

12

xii
TABLE OF AUTHORITIES (continued)
Shurtleffv. United States,
189 U.S.311 (1903)..

22,24

Strickland v. Washington,
466 U.S. 668 (1984)...

26,27,30

Turner v. Bank of North-America,
4 Dali. 8 (1799)......................

8

United States v. Cotton,
535 U.S. 625 (2002)

6, 34

United States v. Cronic,
466 U.S. 648 (1984)

30,31

United States v. Durham,
941 F.2d 886 (9th Cir. 1991)
United States v. Le Baron,
60 U.S. 73 (1856)......
United States v. Mouat,
124 U.S. 303 (1888)

21

16,18

10

United States v. Providence Journal Co.,
485 U.S. 693 (1988)........................

9,20

United States v. Singleton,
165 F.3d 1297 (10th Cir. 1999)

6,20

United States v. L.A. Tucker Truck Lines, Inc.,
344 U.S. 33 (1952)...................................

33

xiii

TABLE OF AUTHORITIES (continued)
United States v. Woodley,
751 F.2d 1008 (9th Cir. 1985]

22

Upjohn Co. v. United States,
449 U.S. 383 (1981]....

35

Weiss v. United States,
510U.S. 163 (1994]

13

Willy v. Coastal Corp.,
503 U.S. 131 (1992]

8

CONSTITUTIONAL PROVISIONS
U.S. Const., Art. II, § 2, cl. 2,
Appointments Clause...

passim

U.S. Const., Art. II, § 3,
Commissions Clause

passim

U.S. Const., Art. Ill, § 2

passim

U.S. Const., Art. VI, cl. 3,
Oath Clause............
Sixth Amendment

18
ii, 3, 30, 31

STATUTES
5 U.S.C. § 2902(c]
18 U.S.C. §3231

16
6,34

xiv
TABLE OF AUTHORITIES 0continued)
28 U.S.C. § 503

16,25

28 U.S.C. §515

16

28 U.S.C. §516

6,10,19

28 U.S.C. §519

16

28 U.S.C. § 542

11,16,23, 24

28 U.S.C. §542 [a)

16

28 U.S.C. § 544

18

28 U.S.C. § 547

6

28 U.S.C. § 1254(1)

1

28 U.S.C.§ 2253(c)
28 U.S.C. §2255

i, ii, 4
passim

Rules:
Fed. R. Crim. P. Rule 1 (b)(1) (A,B)

6

Fed. R. Crim. P. Rule 12(a)

7

Regulations:
28 C.F.R. § 0.15

12

28 C.F.R §0.15(b)(l)(v)

11

XV

TABLE OF AUTHORITIES (continued)
U.S. Attorneys' Manual:
Title 3: EOUSA, § 3-2.000

11

Title 3: EOUSA, §3-4.213(1]

23

Other Authorities
G. Wood, The Creation of The American Republic
1776-1787 (1969]..................................................

14

American Bar Association, Model Rules of
Professional Conduct..................................

27

American Bar Association, Standards for Criminal Justice:
Prosecution and Defense Function 3d ed.
27
(1993]

PETITION FOR A WRIT OF CERTIORARI

Petitioner, Warren E. Rosenfeld, respectfully
requests this Court to issue a writ of certiorari to review
the judgment of the United States Court of Appeals for the
Eleventh Circuit denying a certificate of appealability.
OPINIONS BELOW
The Eleventh Circuit's denial of Petitioner's motion
for reconsideration and rehearing en banc in Appeal No.
20-10321-G is provided in Appendix A. The Eleventh
Circuit's denial of Petitioner's application for a COA in
Appeal No. 20-10321-G is provided in Appendix B. The
District Court’s order denying Petitioner's § 2255 Motion
and denying a certificate of appealability is provided in
Appendix C.
JURISDICTION
The judgment of the court of appeals was entered on
August 20, 2020. It denied rehearing en banc on
September 22, 2020. This Court has jurisdiction under 28
U.S.C. § 1254(1].
CONSTITUTIONAL, STATUTORY, AND REGULATORY
PROVISIONS INVOLVED
The Appointments, Oath, Commissions, and Article
III Jurisdiction Clauses as well as pertinent statutory and
regulatory provisions are reproduced in the Appendix at
37a-39a.

2

STATEMENT OF THE CASE
A.

Introduction

The Eleventh Circuit's denial of Petitioner's request
for a certificate of appealability (COA) was unreasonable
and conflicts with this Court's decision in Miller-El v.
Cockrell, 537 U.S. 322, 337 (2003), because Petitioner
made the requisite showing for a COA to issue. Petitioner
challenges the district court's denial of his petition for
habeas corpus pursuant to 28 U.S.C. § 2255 on his claims
that the district court lacked Article III subject-matter
jurisdiction over his grand jury and trial proceedings as
lacking an authorized representative of the United States
in the proceedings, and that Petitioner did not receive
effective assistance of counsel such that the resulting
prejudice produced an unfair trial. The Eleventh Circuit's
refusal to issue Petitioner a COA, although he clearly met
the standards set forth by this Court, is a compelling
reason to grant this petition or to summarily reverse.
This case presents questions regarding a federal
court's Article III subject-matter jurisdiction vis-a-vis
persons authorized to represent the United States in
litigation, and the circumstances under which a defense
counsel's actions constitute deficient performance that
results in prejudice to a defendant. First, can a federal
court's Article III subject-matter jurisdiction be invoked
by persons unauthorized to represent the United States in
litigation when the United States is a party? Second, is it
required that the Attorney General of the United States
(Attorney General) make the appointment of an AUSA
when the appointment is made by the Department of
Justice (DOJ)? Third, is a Presidential commission
required to prove the completion of the appointment of a

3

nominee to the office of Assistant United States Attorney
(AUSA] as an inferior Officer of the United States? Fourth,
may an AUSA, as an Officer of the United States, be granted
a permanent appointment to office, and if not, what
determines the term of an AUSA's appointment? Fifth,
what documentation is required to provide conclusive
competent proof of the appointment to office of an AUSA
as an Officer of the United States? Sixth, does the failure of
defense counsel to examine a federal court's subjectmatter jurisdiction constitute ineffective assistance of
counsel and cause prejudice to a defendant when subjectmatter jurisdiction is lacking? Seventh, does counsel's
revelation of confidential information in violation of
attorney-client privilege, that causes a breakdown in the
adversarial process, constitute ineffective assistance of
counsel under the Sixth Amendment and result in per se
prejudice?
B.

Procedural History

Petitioner was a federal prisoner that served a total
term of 60-months imprisonment for one count of
conspiring to commit wire fraud and three counts of
committing wire fraud and aiding and abetting wire fraud.
After conviction in a jury trial in the District Court of the
Middle District of Florida, and unsuccessfully pursuing a
direct appeal, Petitioner filed a 28 U.S.C. § 2255 motion to
vacate, set aside, or correct his sentence, which, as
amended, raised three claims for relief:
1)

the district court lacked subject-matter
jurisdiction over Petitioner's case because the
government attorneys who signed his
indictment and prosecuted his case were not
validly appointed AUSAs;

4
2)

3]

trial counsel was ineffective for failing to act on
the lack of subject-matter jurisdiction, with
resulting prejudice; and,
trial counsel was ineffective for providing
confidential documents with the essence of
Petitioner's defense to the prosecution prior to
trial, with resulting prejudice.

After the government responded and Petitioner
replied, the district court issued an order denying all
claims in Petitioner's amended § 2255 motion and
denying Petitioner a certificate of appealability (COA).
(App. C). Petitioner appealed and moved the Eleventh
Circuit for a COA. On August 20,2020, the Eleventh Circuit
denied Petitioner's motion for a COA on all claims. (App.
B). On September 22, 2020, the Eleventh Circuit denied
Petitioner's petition for rehearing or hearing en banc.
(App. A).
REASONS FOR GRANTING THE PETITION
The Eleventh Circuit improperly denied Petitioner a
COA pursuant to 28 U.S.C. § 2253(c). Under 28 U.S.C. §
2253(c)(1)(B), in order for Petitioner to appeal the district
court's dismissal of a petition for a writ of habeas corpus,
a circuit justice or judge must first issue a COA. "A
certificate of appealability may issue . . . only if the
applicant has made a substantial showing of the denial of
a constitutional right." 28 U.S.C. § 2253(c)(2). To obtain a
COA, a movant must demonstrate that an issue is
debatable among jurists of reason or that the question
deserves encouragement to proceed further. Miller-El, 537
U.S. at 327. This Court has held that "a claim can be
debatable even though every jurist of reason might agree,
after the COA has been granted and the case has received

5

full consideration, that petitioner will not prevail." Id. at
338. The claims sought to be appealed must be "debatable
among jurists of reason," or different courts must be able
to resolve the claims "in a different manner." Id. at 336
(citing Barefoot v. Estelle, 463 U.S. 880 (1983]). The
determination as to whether to issue a COA should be a
threshold inquiry into whether the district court's
decision was debatable and does not require a decision on
the merits. Id. at 342. Therefore, a movant does not have
to demonstrate that the appeal would succeed to obtain a
COA. Id. at 337 ("Accordingly, a court of appeals should not
decline the application for a COA merely because it
believes the applicant will not demonstrate entitlement to
relief.").
Petitioner has made a substantial showing of the
denial of his constitutional rights because: (1) Official
government documents provided by the Executive Office
of United States Attorneys (EOUSA) indicate that the
grand jury and trial proceedings leading to Petitioner's
conviction were conducted without a properly appointed
representative of the United States, thus depriving the
district court of jurisdiction; (2) Petitioner's counsel failed
to act on the district court's lack of jurisdiction; and (3)
Petitioner's counsel violated attorney-client privilege by
revealing confidential documents, which resulted in a lack
of meaningful adversarial testing of the prosecution's case
and an unfair trial. Such issues are debatable among jurists
of reason and meets the standards for a COA.
I.

The District Court Lacked Article III SubjectMatter Jurisdiction

The Constitution grants judicial power over all cases,
in law and equity and over all controversies to which the

6
United States is a party (U.S. Const., Art. Ill § 2) and grants
original jurisdiction to the district courts of the United
States (18 U.S.C. § 3231). "Under Article III of the
Constitution, federal courts may adjudicate only actual,
ongoing cases or controversies," and "[t[his case-orcontroversy requirement subsists through all stages of
federal judicial proceedings, trial and appellate." Lewis v.
Continental Bank Corp., 494 U.S. 472,477 (1990).
Under 18 U.S.C. § 3231, a federal court's subjectmatter jurisdiction is asserted when an indictment or
information is filed under the signature of "an attorney for
the government." Federal Rules of Criminal Procedure
(FRCrP) Rule 1(b)(1)(A,B). The phrase "subject-matter
jurisdiction" means "the court's statutory or
constitutional power to adjudicate the case." U.S. v. Cotton,
535 U.S. 625, 630 (2002). An "attorney for the
government" means: "(A) the Attorney General or an
authorized assistant; (B) a United States attorney or
authorized assistant." FRCrP Rule 1(b)(1) (A, B).
"[T]he conduct of litigation in which the United
States...is a party...is...reserved to officers of the
Department of Justice, under the direction of the Attorney
General." 28 U.S.C. § 516; See also U.S. v. Singleton, 165 F.3d
1297, 1299-1300 (10th Cir. 1999) (en banc) (”[0]nly
officers of the Department of Justice or the United States
Attorney can represent the United States in the
prosecution of a criminal case. 28 U.S.C. §§ 516, 547
(1994).").
In this case, when A. Tysen Duva and Karen L. Gable
(government attorneys) signed Petitioner's Indictment
they represented themselves as AUSAs, inferior Officers of
the United States in the Department of Justice authorized

7

to represent the United States in litigation and invoke the
Article III subject-matter jurisdiction of the district court.
(App. D at 30a). An AUSA seeks to exercise a court's Article
III jurisdiction by claiming standing to represent the
United States when signing their name, with the title of
AUSA, to an indictment or information. FRCrP Rule 12(a).
Petitioner filed Freedom of Information Act (FOIA)
requests with the EOUSA for all documents relating to any
appointments as AUSAs for the government attorneys to
investigate the validity of their jurisdictional claims. (App.
E at 31a; App. F at 32a). The only records produced by the
EOUSA were titled "Appointment Affidavits" that only
contained an Oath of Office, an Affidavit as to Striking
Against the Federal Government, and an Affidavit as to
Purchase and Sale of Office, dated August 20, 2007 for Mr.
Duva and May 2,1994 for Ms. Gable. (App. G at 33a; App.
H at 34a).
As the EOUSA was unable to produce a copy of a
current letter of appointment from the Attorney General,
a current Presidential commission, and a current oath of
office for the government attorneys, Petitioner believed
that the government attorneys were not properly
appointed as AUSAs. See National Archives v. Favish, 541
U.S. 157, 174 (2004). ("There is also a presumption of
legitimacy given to official conduct of the EOUSA and its
FOIA responses."); Hobbs v. Blackman, 752 F.2d 1079,
1081-82 (11th Cir. 1985) ("Official records...are entitled
to a presumption of regularity and are accorded great
evidentiary weight.").
Petitioner challenged the District Court's jurisdiction
over the grand jury proceedings, the validity of the
indictment, and the District Court's jurisdiction over

8

Petitioner's criminal proceedings under 28 U.S.C. § 2255
as lacking an authorized representative of the United
States in the proceedings. This Court has definitively ruled
on the limits of a federal court's jurisdiction and placed the
burden of proof that jurisdiction exists squarely on the
party exerting jurisdiction. See Kokkonen v. Guardian Life
Ins. Co. ofAmerica, 511 U.S. 376, 377 (1994]:
Federal courts are courts of limited jurisdiction.
They possess only that power authorized by
Constitution and statute, see Willy v. Coastal Corp.,
503 U.S. 131, 136-137 (1992); Bender v.
Williamsport Area School Dist, 475 U.S. 534, 541
(1986), which is not to be expanded by judicial
decree, American Fire Casualty Co. v. Finn, 341 U.S.
6 (1951). It is to be presumed that a cause lies
outside this limited jurisdiction, Turner v. Bank of
North-America, 4 Dali. 8, 11 (1799), and the
burden of establishing the contrary rests upon the
party asserting jurisdiction, McNutt v. General
Motors Acceptance Corp., 298 U.S. 178, 182-183
(1936).
Under this Court’s established (and unbroken) line of
Appointments Clause jurisprudence, AUSAs, as Officers of
the United States, must be appointed by the Attorney
General when receiving DOJ appointments, must receive
Presidential commissions to complete their appointment
to office, must take an oath of office to complete
investiture to office, and may not be granted permanent
appointments to office. As no official records have been
produced to uphold the government attorney's
jurisdictional claims, the government attorneys in
Petitioner's proceedings were not authorized to represent
the United States in litigation, thus the district court lacked

9
jurisdiction over Petitioner's proceedings. See U.S. v.
Providence Journal Co., 485 U.S. 693, 708 (1988], ("Absent
a proper representative of the Government as a petitioner
in ... criminal prosecution, jurisdiction is lacking...”]
A. The Appointment of AUSAs in the DO) Can Only
be Made by the Attorney General
The Eleventh Circuit's ruling that the document
titled "Appointment Affidavits" is sufficient to prove a
valid appointment of an AUSA ignores the fact that the
document contains no references to the Appointing
Officer. As the Constitution requires that AUSAs, as
inferior officers of the United States, be appointed only by
the United States Attorney General as head of the DOJ, then
without an affirmation in the document that the Attorney
General made the appointment, then there is no proof that
the appointment was made by the Attorney General. See
Lucia v. Sec. & Exch. Comm'n, 138 S. Ct. 2044, 2051 (2018],
("The Appointments Clause prescribes the exclusive
means of appointing "Officers." Only the President, a court
of law, or a head of department can do so. See Art. II, § 2,
cl. 2."]; See also Ex Parte Duncan N. Hennen, 38 U.S. 230,
255 (1839] ("The Constitution of the United States
declares that the executive power is in the President; and
the limitation of appointments is a diminution of that
power, and it is to be strictly construed."].
As there are no documents showing the
appointment of the government attorneys as AUSAs by the
Attorney General in the EOUSA's response to Petitioner's
FOIA request for all appointment documents, and given
the fact that the district and appellate court's have refused
to order the production of such documents, there is no
proof that the government's attorneys have been

10
appointed by the head of the DOJ. See U.S. v. Mouat, 124
U.S. 303, 307 [1888):
Unless a person in the service of the Government,
therefore, holds his place by virtue of an
appointment by the President, or of one of the
courts of justice or heads of Departments
authorized by law to make such an appointment, he
is not, strictly speaking, an officer of the United
States.
And, as the government's attorneys were not
Officers of the United States, they were not authorized to
represent the United States in Petitioner's proceedings.
See 28 U.S.C. § 516 ("[T]he conduct of litigation in which
the United States...is a party...is...reserved to officers of
the Department of Justice, under the direction of the
Attorney General.").
Because the government's attorneys were not
officers of the United States, then they were merely
employees and private citizens, and lacked the authority
to represent the United States and invoke a federal court's
jurisdiction. See Linda R.S. v. Richard D., 410 U.S. 614, 619
(1973) "[A] private citizen lacks a judicially cognizable
interest in the prosecution or nonprosecution of another.”;
See also Already, LLC v. Nike, Inc., 568 U.S. 85,91 (2013):
A case becomes moot--and therefore no longer a
'Case' or 'Controversy' for purposes of Article III—
'when the issues presented are no longer 'live' or
the parties lack a legally cognizable interest in the
outcome.' Murphy v. Hunt, 455 U.S. 478,481,102 S.
Ct. 1181,71 L. Ed. 2d 353 (1982) (per curiam).

11
In consideration, it is appropriate to ask the
question: Why did the EOUSA not return letters showing
the Attorney General had appointed the government
attorneys prosecuting Petitioner's case as AUSAs in
response to Petitioner's FOIA request for such
documents? The obvious and simple answer is that no
letters of appointment from the Attorney General exist.
An examination of the process under which the DOJ
hires AUSAs, and makes their appointment to office
permanent, reveals why the existence of an appointment
from the Attorney General would not exist. At the
forefront of the DOJ's hiring process is an unconstitutional
departmental rule/regulation which attempts to delegate
the appoint power of the Attorney General to another
officer in the DOJ who is not head of department,
specifically the Deputy Attorney General. See 28 CFR §
0.15(b](l](vJ, which in relevant part, states:
[T]he Deputy Attorney General shall... exercise the
power and authority vested in the Attorney General
to take final action in matters pertaining to... [t]he
appointment... of Assistant United States Attorneys.
This usurpation of the Constitutional appointment
power continues by executive edict under the aegis of the
U.S. Attorneys' Manual, Title 3: EOUSA 3-2.000 - Assistant
United States Attorneys, which reads in relevant part:
Assistant United States Attorneys are appointed by
the Attorney General and may be removed by that
official. See 28 U.S.C. Sec. 542. The Deputy Attorney
General exercises the power and authority vested
in the Attorney General to take final action in
matters pertaining to the employment, separation,

12
and general administration of Assistant United
States Attorneys. See 28 C.F.R. Sec 0.15. Such
authority may be, and has been, delegated to the
Director, Executive Office for United States
Attorneys.
Authority to appoint Assistant United States
Attorneys may be, and has been delegated to the
Director, Office of Attorney Personnel Management.
Authority to effect reprimands, suspensions,
and/or removal for Assistant United States
Attorneys may be, and has been, delegated to the
Director, EOUSA.
This delegation of the Attorney General's power to
appoint AUSAs by executive fiat is unconstitutional
because the Appointments Clause only allows the
appointment of inferior officers by the "heads of
departments", not other officers in the department.
"Congress has plenary power to decide not only what
inferior officers will exist but also who (the President or a
head of department) will appoint them." Seila Law LLC v.
Consumer Financial Protection Bureau, No. 19-7, at *72
(June 29, 2020). This limitation on the dilution of the
appointment power was also clearly delineated by the
Court in Freytag v. Commissioner, 501 U.S. 868, 883-84
(1991):
Despite Congress' authority to create offices and to
provide for the method of appointment to those
offices, 'Congress' power... is inevitably bounded by
the express language of Article II, cl. 2, and unless the
method it provides comports with the latter, the
holders of those offices will not be "Officers of the
United States." Buckley [v. Valeo], 424 U.S. [1,] 138-

13
139 [(1976]] (discussing Congress' power under the
Necessary and Proper Clause].
While reviewing an attempt to delegate the
appointment power from the head of an Executive
Department to "department heads" within each Executive
Department, this Court stated: "We cannot accept ... that
every part of the Executive Branch is a department, the
head of which is eligible to receive the appointment
power." Freytag, 501 U.S. at 885.
The necessity of limiting the appointment power to
safeguard the proper functioning of government was
made clear by this Court when it ruled that:
The Appointments Clause prevents Congress from
distributing power too widely by limiting the actors
in whom Congress may vest the power to appoint.
The Clause reflects our Framers' conclusion that
widely distributed appointment power subverts
democratic government. [] The Framers recognized
the dangers posed by an excessively diffuse
appointment power and rejected efforts to expand
that power.
Id. at 885.
Further, the Appointments Clause "is more than a
matter of etiquette or protocol; it is among the significant
structural safeguards of the constitutional scheme."
Edmond v. US., 520 U.S. 651,659 (1997].
This Court has been unwavering in its rulings
regarding the dilution of the appointment power. See
Weiss v. U.S., 510 U.S. 163,186-87 (1994]:

14
But although they allowed an alternative
appointment method for inferior officers, the
Framers still structured the alternative to ensure
accountability and check governmental power: any
decision to dispense with Presidential appointment
and Senate confirmation is Congress's to make, not
the President's, but Congress's authority is limited
to assigning the appointing power to the highly
accountable President or the heads of federal
departments, or, where appropriate, to the courts
of law.;
Freytag, 501 U.S. at 883:
The "manipulation of official appointments had
long been one of the American revolutionary
generation's greatest grievances against executive
power, see G. Wood, The Creation of The American
Republic 1776-1787, p. 79 (1969) (Wood), because
"the power of appointment to offices" was deemed
"the most insidious and powerful weapon of
eighteenth century despotism." Id., at 143. Those
who framed our Constitution addressed these
concerns by carefully husbanding the appointment
power to limit its diffusion. [] The Framers
understood ..., that by limiting the appointment
power, they could ensure that those who wielded it
were accountable to political force and the will of
the people. [] Even with respect to "inferior
Officers," the Clause allows Congress only limited
authority to devolve appointment power on the
President, his heads of departments, and the courts
of law.;

15
Id, at 880:
The Appointments Clause prevents Congress from
dispensing power too freely; it limits the universe
of eligible recipients of the power to appoint.
Because it articulates a limiting principle, the
Appointments Clause does not always serve the
Executive's interests. For example, the Clause
forbids Congress to grant the appointment power
to inappropriate members of the Executive Branch.
Neither Congress nor the Executive can agree to
waive this structural protection. [] The structural
interests protected by the Appointments Clause are
not those of any one branch of Government but of
the entire Republic.
Because the Eleventh Circuit ignored Petitioner's
legitimate argument that it could not be assumed that the
government attorneys in Petitioner's proceedings were
appointed as AUSAs by the Attorney General, and no proof
that the governments attorneys were appointed by the
Attorney General has been forthcoming from the EOUSA
or the courts, this Court should grant certiorari to correct
this error so that the district court's jurisdiction, or lack
thereof, can be properly determined.
B. A Presidential Commission is Required to
Complete the Appointment of an AUSA
An AUSA is an inferior Officer of the United States.
This Court has defined an "inferior officer" as one "whose
work is directed and supervised at some level by others
who were appointed by Presidential nomination with the
advice and consent of the Senate." Edmond, 520 U.S. at 663.
AUSAs discharge their duties under the supervision and

16
direction of the Attorney General. 28 U.S.C. §§ 515, 519.
Moreover, the attorney general is a principal officer and
head of department, who is appointed by presidential
nomination with the advice and consent of the Senate. Id.
at § 503.
As inferior Officers, the appointment of AUSAs by the
DOJ must be performed in compliance with Article II, § 2,
cl. 2 of the Constitution of the United States [Appointments
Clause). Lucia, 138 S. Ct. at 2051, ["The Appointments
Clause prescribes the exclusive means of appointing
"Officers."). This appointment is made pursuant to 28
U.S.C. § 542[a) ["the Attorney General may appoint one or
more assistant United States Attorneys in any district
when the public interest so requires.").
The appointee must receive a Presidential
commission under U.S. Const. Art. II, § 3 ["[The President]
shall commission all officers of the United States.")
(Commissions Clause), pursuant to 5 U.S.C. § 2902(c):
The commissions of judicial officers and United
States attorneys ... and other commissions shall be
made out and recorded in the Department of Justice
under the seal of that department and
countersigned by the Attorney General. The
department seal may not be affixed to the
commission before the commission has been
signed by the President."); See also U.S. v. Le Baron,
60 U.S. 73, 78 (1856) (When a nominee's
"commission has been signed by the President, and
the seal of the United States is affixed thereto, his
appointment to that office is complete.

17
This Court has ruled that conclusive evidence of the
appointment of an officer of the United States is when the
Presidential commission for the appointment is
completed. SeeMarburyv. Madison, 5 U.S. 137,158 (1803):
The signature [of the President] is a warrant for
affixing the great seal to the commission; and the
great seal is only to be affixed to an instrument
which is complete. It attests, by an act supposed to
be of public notoriety, the verity of the presidential
signature. It is never to be affixed till the
commission is signed, because the signature, which
gives force and effect to the commission, is
conclusive evidence that the appointment is made.
The fact that the Appointments and Commissions
Clauses are separate and distinct acts was explained by the
Court in Marbury, 5 U.S. at 156 ("The acts of appointment
to office, and commissioning the person appointed, can
scarcely be considered one and the same; since the power
to perform them is given in two separate sections of the
Constitution."). This distinction underpins the necessity of
producing both an appointment letter and a Presidential
commission when an AUSA is legitimately called upon to
substantiate their jurisdictional claims.
The Appointments Clause and Commissions Clause
"contemplates cases where law may direct the President
to commission an officer appointed ... by the heads of
departments ..." Id. This is the case with the government
attorneys in Petitioner's proceedings, as a DOJ
appointment of an AUSA comes from the Attorney
General, the head of department, rather than from the
President.

18
"Of consequence, the constitutional distinction
between the appointment to an office and the commission
of an officer who has been appointed, remains the same as
if in practice the president had commissioned officers
appointed by an authority other than his own." Id.
"[I]t should be supposed, that the solemnity of
affixing the seal is necessary not only to the validity of the
commission, but even to the completion of an
appointment, still when the seal is affixed the appointment
is made, and the commission is valid." Id., at 158-159.
Once the appointment by the Attorney General has
been completed with the issuance of a Presidential
commission, the appointee must take an oath of office
under U.S. Const. Art. VI, cl. 3 (" [A]ll executive and judicial
Officers ... of the United States ... shall be bound by Oath or
Affirmation ... to support the Constitution..."] (Oath
Clause], pursuant to 28 U.S.C. § 544 ("Each United States
attorney, assistant United States attorney, and attorney
appointed under section 543 of this title, before taking
office, shall take an oath to execute faithfully his duties."].
See Le Baron, 60 U.S. at 78:
Congress may provide ... that certain acts shall be
done by the appointee before he shall enter on the
possession of the office under his appointment.
These acts then become conditions precedent to the
complete investiture of the office; ... and when the
person has performed the required conditions, his
title to enter on the possession of the office is also
complete.
Once investiture to office has been completed,
AUSAs are authorized to represent the United States in

19
litigation as officers in the Department of Justice. See 28
U.S.C. § 516.
In this case, however, the Eleventh Circuit has ruled
that documents titled "Appointment Affidavits" (App. G at
33a; App. H at 34a), that only contain an Oath of Office, an
Affidavit as to Striking Against the Federal Government,
and an Affidavit as to Purchase and Sale of Office
"indicated valid appointments" of the government
attorneys as AUSAs. (App. B at 7-8a). The documents have
no references to an appointment to office by the Attorney
General or references to the Presidential Commission for
an appointment to office. And, although the "Appointment
Affidavits" document contained the oath of office required
for investiture to office, those oaths were for past alleged
appointments, and not for appointments to office under
the then current Attorney General and Chief Executive. In
practical terms, the Eleventh Circuit's ruling is that when
considering a federal court's jurisdiction, when
jurisdiction has been invoked by a purported AUSA as an
Officer of the United States, that no proof is required that
the Attorney General actually made an appointment to
office for that AUSA, that no commission to office is
necessary to prove the validity of a claimed appointment
as an AUSA, and that oaths of office from past
appointments as Officers of the United States are valid for
new appointments.
The Eleventh Circuit provided no rationale or
precedent justifying its deviation from the constitutional
provisions and congressional statutes governing the
appointments of officers of the United States, which is
understandable as indeed none exist.

20

The Eleventh Circuit's opinion is in stark contrast to
Justice Alito's concurring opinion when he wrote: "Under
the Constitution, all officers of the United States must take
an oath ... and ... must receive a commission." Dep't of
Transp. v. Ass'n of Am. Railroads, 135 S. Ct. 1225, 1235
(2015). In Id. at 1235, Justice Alito emphasizes that:
Both the Oath and Commission Clauses confirm an
important point: Those who exercise the power of
Government are set apart from ordinary citizens.
Because they exercise greater power, they are
subject to special restraints. There should never be
a question whether someone is an officer of the
United States because, to be an officer, the person
should have sworn an oath and possess a
commission.
As no Presidential commission, nor a current oath of
office, showing competent conclusive proof that the
government attorneys were properly appointed AUSAs
has been produced by the EOUSA, or by any other source,
and the federal courts have so far declined to order the
production of such documents, the facts indicate that
Petitioner's proceedings lacked an authorized
representative of the United States and the District Court
lacked jurisdiction. See Singleton, 165 F.3d at 1299-1300:
Indeed, a federal court cannot even assert
jurisdiction over a criminal case unless it is filed
and prosecuted by the United States Attorney or a
properly appointed assistant. See United States v.
Providence Journal Co., 485 U.S. 693, 699-708
(1988] (dismissing petition for certiorari for lack of
jurisdiction where the petition was filed by a
government lawyer acting without the authority to

21
do so); United States v. Durham, 941 F.2d 886, 892
(9th Cir. 1991) (whether Special AUSA had been
properly appointed went to jurisdiction of the
district court). Therefore, the government's
sovereign authority to prosecute and conduct a
prosecution is vested solely in the United States
Attorney and his or her properly appointed
assistants. Of course, it cannot be otherwise
because the government of the United States is not
capable of exercising its powers on its own; the
government functions only through its officers and
agents.
Because the Eleventh Circuit's ruling contravenes
the constitutional provisions upon which the jurisdiction
of every federal court in the United States may be invoked,
this Court should grant certiorari to correct the Eleventh
Circuit's error.
C. AUSAs Do Not Have Permanent Tenure to Office
as Officers of the United States
The second sentence of Article III, Section 1 of the
Constitution of the United States, says: "The judges, both
of the supreme and inferior courts, shall hold their offices
during good behaviour..."
The specification that Article III judges "hold their
offices during good behaviour" has been established as
meaning that these judges have permanent tenure to their
appointment to office. O'Donoghue v. U.S., 289 U.S. 519,
529-30 (1933) ("the great underlying purpose which the
framers of the Constitution had in mind ... [led] them to
incorporate in [the Constitution] the provision ... of ...
permanent tenure of office...[for Art. Ill judges]"); Evans v.

22

Gore, 253 U.S. 245, 252 (1920] [Alexander Hamilton
' referred to the "permanent tenure of their offices" [] in
explanation and support of the Constitutional provision
that judges 'shall hold their offices during good
behavior'".); U.S. v. Woodley, 751 F.2d 1008,1018 (9th Cir.
1985) ("[T]he Framers included in Article III the
requirement that federal judges have permanent
tenure...").
The permanent tenure granted to federal judges is
synonymous with the principle of lifetime tenure. Palmore
v. U.S., 411 U.S. 389, 406 (1973) ("Relying heavily on
congressional intent, the Court considered that Congress,
by consistently providing the judges of these courts with
lifetime tenure..."); Northern Pipeline Co. v. Marathon Pipe
Line Co., 458 U.S. 50, 59 (1982) ("The 'good Behaviour’
Clause guarantees that Art. Ill judges shall enjoy life
tenure...").
This permanent/life tenure to office that is
Constitutionally granted to federal judges may not be
granted to any other Officers of the United States,
including AUSAs. In considering the power to remove an
officer of the United States from his appointed office, this
Court stated: "It cannot, for a moment, be admitted, that it
was the intention of the Constitution, that those offices
which are denominated inferior offices should be held
during life." Ex Parte Duncan N. Hennen, 38 U.S. 230, 259
(1839); See also Shurtleffv. U.S., 189 U.S. 311, 316 (1903)
("The tenure of the judicial officers of the United States is
provided for by the Constitution, but with that exception
no civil officer has ever held office by a life tenure since the
foundation of the government.”).

23

Regardless of the Constitutional prohibition for a
permanent appointment of an officer of the United States,
other than for federal judges, the DOJ is making permanent
appointments of AUSAs through their internal hiring
practices. The United States Department of Justice, justice
Manual, Title 3: EOUSA, § 3-4.213(1) ("Assistant United
States Attorneys appointed to United States Attorneys'
offices (USAOs), are excepted from the competitive service
under the aegis of 28 U.S.C. § 542...").
In fact, the Office of Personnel Management of the
DOJ specifies in their postings for non-term AUSA job
openings that the appointments are permanent. (App. I at
35a) Under special unrelated circumstances, there are
some temporary job openings for an AUSA that specify a
term of appointment. (App. J at 36a).
The view that the DOJ appointments of government
attorneys as AUSAs are permanent is promulgated by the
Eleventh Circuit's ruling that the government attorneys,
Ms. Gable and Mr. Duva, that signed Petitioner's
indictment and prosecuted his case "were sworn into
office on May 1,1994, and August 19, 2007, respectively";
and by virtue of being sworn in on that date held "valid
appointments" during Petitioner's proceedings. (App. B at
7-8a). Ongoing appointments as Officers with continuing
tenure of twenty-six and thirteen years without any end
for those appointments, can hardly be interpreted as
anything other than permanent appointments.
The statute that establishes the office of an AUSA, 28
U.S.C. § 542, does not fix a term of office, but clearly their
appointments cannot be permanent. The question then
becomes: under what conditions does an AUSA's
appointment to office end, such that they would need to be

24
reappointed or vacate their office? Clearly, that event
horizon must be tied to the appointment power granted in
the Appointments Clause. As the head of department, the
Attorney General has the exclusive power to appoint, or
remove from office, an AUSA. 28 U.S.C. § 542. As such, it
would seem that an AUSA's tenure to office is tied to the
tenure of the Attorney General that appointed them. This
view is supported by this Court's ruling in De Castro v.
Board of Comm., when it ruled that when "an Act is silent
as to their terms of office, they can presumably be
appointed for any term not exceeding that of the officer
appointing them." 322 U.S. 451, 463 (1944). Further
support of this position is offered in Kalaris v. Donovan,
where it was stated that Shurtleff and De Castro
"conclusively demonstrate that, in the absence of a
congressional statement to the contrary, inferior officers .
. . serve indefinite terms at the discretion of their
appointing officers." 797 F.2d 376,396-97 (D.C. Cir. 1983).
The Kalaris reference to the "indefinite terms" of inferior
officers is of course logical, because they serve at the
"discretion of their appointing officers," and the terms of
their appointing officers will vary with circumstances,
such as the exit from office of the head of department
when a Presidential inauguration ushers in the leader of a
different political party. Once their appointing officer's
term ends, then an AUSA's term ends. There is no great
administrative burden required to reappoint AUSA's upon
the termination of their appointments when their
appointing officer leaves office, and provisions already
exist that accommodate the transition period when
appointments to office are Constitutionally or statutorily
terminated.
Of additional consideration is the fact that the
Attorney General's ability to appoint an AUSA to office is

25
facilitated by their appointment to office by the President,
with the advice and consent of the Senate. 28 U.S.C. § 503.
As such, even assuming arguendo that an AUSA's
appointment somehow survives the exit of an individual
as the head of a department, it would seem impossible that
the appointment of an AUSA can survive the change in a
Presidency from which the head of department draws
their appointment power. This is because a head of
department "discharges a political duty of the President..."
Myers v. U.S., 272 U.S. 52,134 [1926). If the political aims
of a new President are different than those of their
predecessor, than how can the new Chief Executive be
expected to effectively implement new enforcement
policies in the Department of Justice if the AUSAs
appointed by the previous head of department are not
aligned with the new Executive's aims? While discussing
the meaning of the Appointments Clause with regard to
inferior officers, this Court stated that:
in the context of a Clause designed to preserve
political accountability relative to important
Government assignments, we think it evident that
'inferior officers' are officers whose work is
directed and supervised at some level by others
who were appointed by Presidential nomination
with the advice and consent of the Senate. This
understanding of the Appointments Clause
conforms with the views of the first Congress.
Edmond, 520 U.S. at 663
It is axiomatic that the Chief Executive needs
alignment with his political aims in the officers of the
Executive Branch whose appointments stem from the
Heads of Departments nominated by the Chief Executive.

26
Nothing in the Framers writings or federal jurisprudence
indicates otherwise.
In making its ruling, the Eleventh Circuit has
perpetuated the unconstitutional precept that AUSAs can
receive permanent appointments. This Court should grant
certiorari to facilitate correction of the current
unconstitutional practice of granting AUSAs permanent
appointments, and prevent unauthorized persons from
unconstitutionally invoking a federal court's Article III
subject-matter jurisdiction.
II.

Counsel's Actions Constitute
Assistance of Counsel

Ineffective

A. Counsel Failed to Address the District Court's
Lack of Jurisdiction
From arraignment through judgment, Petitioner was
represented by Mitchell A. Stone (counsel). Counsel was
ineffective when he failed to: (1) perform any due
diligence regarding the government attorney's alleged
jurisdictional facts; (2) consult with Petitioner regarding
any potential jurisdictional issues; and (3) object to the
district court's jurisdiction. (Warren Rosenfeld v. United
States, District Court Case No. 3:18-cv-00607-MMH-JRK,
United States District Court for the Middle District of
Florida, Jacksonville Division (§ 2255 Motion), Doc. 9 at 8,
21-22). Counsel's failure to act cannot be excused if
counsel was ignorant of the district court's lack of
jurisdiction. "An attorney’s ignorance of a point of law that
is fundamental to his case combined with his failure to
perform basic research on that point is a quintessential
example of unreasonable performance under Strickland."
Hinton v. Alabama, 571 U.S. 263, 274 (2014).

27

"The proper measure of attorney performance
remains simply reasonableness under prevailing
professional norms." Strickland v. Washington, 466 U.S.
668,688 (1984]. "Prevailing norms of practice as reflected
in American Bar Association standards and the like ... are
guides to determining what is reasonable..." Id.
Under the American Bar Association's (ABA's]
Model Rules of Professional Conduct, counsel's inaction
violated: (1] Rule 1.1: Competence, where counsel failed
to "provide competent representation" by not exercising
"legal knowledge, skill, thoroughness and preparation
reasonably necessary for the representation."]; (2] Rule
1.3: Diligence, where counsel failed to "act with
reasonable diligence and promptness in representing a
client."; (3] Rule 1.4(a](2]: Communications, where
counsel failed to "reasonably consult with the client about
the means by which the client's objectives are to be
accomplished."; and, (4] Rule 3.1: Meritorious Claims &
Contentions, where counsel failed to "defend the
proceeding as to require that every element of the case be
established."].
Under the ABA's Standards for Criminal Justice:
Prosecution and Defense Function 3d ed. (1993], counsel's
inaction violated: (1] Standard 4- 1.2(b] The Function of
Defense Counsel, where counsel failed in his "basic duty...
to serve as the accused's counselor ... to render effective,
quality representation."]; (2] Standard 4- 3.6 Prompt
Action to Protect the Accused, where counsel failed to
"protect and preserve [] important rights of the accused ...
by prompt legal action. Defense counsel [failed to] inform
the accused of his ... rights at the earliest opportunity and
take all necessary action to vindicate such rights. Defense

28

counsel [failed to] consider all procedural steps which in
good faith may be taken..."]; and, (3] Standard 4- 5.1[a]
Advising the Accused, counsel failed to "advise the accused
with complete candor concerning all aspects of the
case...").
In considering counsel's inaction on the district
court's lack of jurisdiction, the Eleventh Circuit stated that
"reasonable jurists would not disagree that [Petitioner's]
counsel was not ineffective for failing to raise the issue of
subject-matter jurisdiction based on AUSA appointments.
This issue was not meritorious, so counsel did not offer
ineffective assistance for failing to raise it." (App. B at 8a).
As the Eleventh Circuit ruled in error that the
documents titled "Appointment Affidavits" constituted
competent proof that the government attorneys were duly
appointed inferior Officers of the United States as AUSAs,
then the Eleventh Circuit's ruling that counsel's actions
were not ineffective because of a nonmeritorious
Appointments Clause claim is also incorrect.
B. Counsel Failed to Subject the Prosecution's
Case to Meaningful Adversarial Testing
Counsel provided ineffective assistance when he
violated Petitioner's attorney-client privilege by providing
the government attorneys, prior to trial, six documents
prepared by Petitioner that included Petitioner's research,
strategy, ideas, understanding of the charges, and tactics
that addressed the seminal elements of the indictment,
and were the primary communications with counsel for
formulating Petitioner's defense. These six documents,
collectively referred to as "confidential documents", were
named: (1) "Mischaracterization of the Unistate CD as an

29

Investment Vehicle," (2) "FINRA Registrations & Licenses
are not required for Holland & Rosenfeld," (3] "DTC Issues
resolved - Details," (4) "Review of Unistate Agreement,"
(5) "CUSIP Allegation Issues Resolved," and (6) "Summary
of Fraudulent $200 M CD to Sayar." (§ 2255 Motion, Doc.
9, Attachment 1 at 1-2, (a)(i)(A); Doc. 3 at 1-2, (2)(i-vi));
Doc. 14 at 1-2, (3)(i-vi); Doc. 14, Exhibit 12-17).
In its ruling, the Eleventh Circuit states that
Petitioner "has not established that he was prejudiced by
the disclosure [of the confidential documents] because
[Petitioner] has not pointed to facts showing prejudice..."
(App. B at 5a).
The record shows otherwise. Petitioner referenced
extensive facts in the record showing multiple instances in
which the prosecutor's case showed significant deviation
from the allegations in the indictment. (§ 2255 Motion
Doc. 13 at 3-6, (II)(A)(1)(b), (II) (A)(1)(c)); and the
deviation from the allegations in the indictment were
consistent with the arguments in Petitioner's confidential
documents.
The Eleventh Circuit only addressed actualprejudice when stating that "the record reflects that the
government did not use the exhibits in question during
[Petitioner]'s trial." (App. B at 5a). By only taking into
account that the confidential documents were not
produced as exhibits by the government attorneys, the
Eleventh Circuit failed to considered Petitioner's claim of
perse prejudice where the government attorneys had the
opportunity to use knowledge gleaned from the
confidential documents throughout the trial to guide their
witness questioning and to avoid areas in which
allegations in the indictment could be impeached.

30

Under the circumstances created by counsel,
whereby the government attorneys had the ability to use
the knowledge they possessed from the confidential
documents against Petitioner in every phase of the trial,
Petitioner was denied "the right of the accused to require
the prosecution's case to survive the crucible of
meaningful adversarial testing. " U.S. v. Cronic, 466 U.S.
648, 656 (1984); See also Ferri v. Ackerman, 444 U.S. 193,
204 (1979) ("Indeed, an indispensable element of the
effective
performance
of
[defense
counsel's]
responsibilities is the ability to act independently of the
Government and to oppose it in adversary litigation").
In Strickland, 466 U.S. at 692 this Court explained
that: "In certain Sixth Amendment contexts, prejudice is
presumed. Actual or constructive denial of the assistance
of counsel altogether is legally presumed to result in
prejudice. See United States v. Cronic, ante, at 659, and n.
25.”. Conditions in which counsel has provided
government attorneys, prior to trial, confidential
documents containing the essence of Petitioner's defense
must certainly rise to the level of a constructive denial of
the assistance of counsel, with resulting per se prejudice,
as contemplated in Strickland and Cronic. Every
meaningful step by, and every meaningful question from,
the government attorneys was done throughout the trial
with foreknowledge of Petitioner's defense posture. Some
changes in the government's prosecution of the case were
subtle, but some were blatantly obvious. For example, the
confidential documents held Petitioner's analysis that
showed grievous errors in the indictment's allegations
regarding investment and securities violations. Suddenly,
after gaining possession of the confidential documents,
the government attorneys cancelled the key testimony of

31
Shane Wilkerson of FINRA from their witness list
(Criminal Case No. 3:14-cr-73-J-MMH-JRK Doc. 117],
which was their only scheduled testimony on an
instrumental element of the indictment concerning
securities, investments and licensing for those activities.
(§ 2255 Motion Doc. 13 at 4, (II)(A](l](c](2)].
And yet, the Eleventh Circuit entirely failed to rule
on Petitioner's per se prejudice claim. When counsel gave
the government attorneys confidential documents that
contained extensive insight into Petitioner's defense
posture, counsel ceased to function as Petitioner's
advocate at a critical stage of the trial, and counsel failed
to subject the prosecutor's case to meaningful adversarial
testing throughout the entirety of the trial. See Cronic, 466
U.S. at 659:
The presumption that counsel's assistance is
essential requires us to conclude that a trial is
unfair if the accused is denied counsel at a critical
stage of his trial. Similarly, if counsel entirely fails
to subject the prosecution's case to meaningful
adversarial testing, then there has been a denial of
Sixth Amendment rights that makes the adversary
process itself presumptively unreliable.
It is inconceivable to think that the possession of the
confidential documents by the government attorneys,
whose contents touched every important element of the
indictment and served as the primary communication
from Petitioner to counsel in crafting a defense, does not
constitute a complete failure on the part of counsel to
subject the prosecution's case to meaningful adversarial
testing throughout the trial, and is a condition under

32

which the entire process has been contaminated such that
Petitioner was unable to receive a fair trial.
As their ruling failed to take into account the per se
prejudice claims of Petitioner, the Eleventh Circuit's
conclusions may be wrong and reasonable jurists could
debate whether the petition should have been resolved in
a different manner.
III.

THIS CASE IS THE IDEAL VEHICLE TO RESOLVE
THE QUESTIONS PRESENTED
A. The Appointments, Oath, and Commissions
Clauses are Fundamental in Maintaining the
Integrity of Article III Jurisdiction

This case cleanly presents the important and
recurring questions regarding whether AUSAs, who are
Officers of the United States, must be appointed by the
Attorney General pursuant to the Appointments Clause,
must receive a Presidential commission to office, must
have a current oath of office, and whether they have
permanent appointments to office. Ultimately, the
answers to these questions determines whether or not a
federal court's jurisdiction is legitimate.
The Constitutional scheme for appointing Officers of
the United States in the Appointment, Oath, and
Commissions Clauses protects the functioning of the
Judiciary by ensuring that unauthorized individuals are
unable to invoke a federal court's Article III subject-matter
jurisdiction by requiring "all officers of the United States
[to] take an oath ... and ... receive a commission. Dep't of
Transp., 135 S. Ct. at 1235. So important are the
"structural" interests implicated by an Appointments

33

Clause challenge is that they can "be considered on appeal
whether or not they were ruled upon below." Freytag, 501
U.S. at 878-79. Because these important structural
interests warrant review even where such a challenge has
been waived, see Id. at 879-80, they manifestly warrant
review here, where the issues were properly presented in
and actually decided by both the Eleventh Circuit and the
District Court of the Middle District of Florida.
The constitutionality of proceedings in federal
courts is not only important to the functioning of the
Judicial Branch, but to the rights of individuals compelled
to defend themselves in federal courts.
The questions presented are also tightly focused.
The government attorneys that prosecuted Petitioner's
case have not been appointed by the President, the head
of a department, or a court of law. The only appropriate
remedy for an Appointments Clause violation here is
vacatur of Petitioner's conviction and dismissal of the
indictment. U.S. v. L.A. Tucker Truck Lines, Inc., 344 U.S. 33,
38 (1952) (defect in the appointment of Officer is "an
irregularity which would invalidate a resulting order”);
See also Arbaugh v. Y H Corp., 546 U.S. 500, 514 (2006)
("[W]hen a federal court concludes that it lacks subjectmatter jurisdiction, the court must dismiss the complaint
in its entirety."). The Eleventh Circuit has not argued that
the Appointments, Oath, or Commissions Clause violations
could be excused under a harmless-error, ratification, de
facto officer, or any other similar doctrine. (App. B at 2a8a). And because this case involves a petition for review of
an order from the Eleventh Circuit, the decision and order
under review can be defended only on the grounds
articulated by the Eleventh Circuit, and the government
cannot raise any new grounds for the first time in this

34
Court. See SEC v. Chenery Corp., 318 U.S. 80,87 (1943). For
example, the categorization of AUSAs as inferior officers of
the United States has never been disputed by any party in
this case and thus these are not arguments available to the
government here.
The constitutionality of the improper appointment
of AUSAs has been raised in a number of pending
proceedings, and in multiple jurisdictions. The question as
to whether competent proof of appointment as an AUSA
requires the production of a current appointment by the
Attorney General, a current Presidential commission, and
a current oath of office, and whether AUSAs carry a non­
permanent term of office, admits of only one answer in
each case. These disputes will grow no more ripe, and the
issues no better developed, with time. This Court should
grant certiorari now, in this case.
In discussing jurisdiction under § 3231, this Court
stated that: "Moreover, courts, including this Court, have
an independent obligation to determine whether subjectmatter jurisdiction exists, even in the absence of a
challenge from any party. RuhrgasAG v. Marathon Oil Co.,
526 U.S. 574, 583 (1999).” Arbaugh, 546 U.S. at 514.;
"[The] concept of subject-matter jurisdiction, because it
involves a court's power to hear a case, can never be
forfeited or waived. Consequently, defects in subjectmatter jurisdiction require correction regardless of
whether the error was raised in district court." Cotton, 535
U.S. at 630.

35

B. Meaningful Adversarial Testing is Necessary to
Maintain the Integrity of Criminal Proceedings
in the Judiciary
Also focused is the question as to whether or not
prejudice, such that trial proceedings are rendered unfair,
results when counsel violates attorney-client privilege by
providing government prosecutors with confidential
documents that represent defendant's primary
communication with counsel in formulating a defense
against criminal charges.
Attorney-client privilege is grounded in the interest
and administration of justice. See Upjohn Co. v. U.S., 449
U.S. 383, 389 (1981) ("The attorney-client privilege is the
oldest of the privileges for confidential communications
known to the common law. Its purpose is to encourage full
and frank communication between attorneys and their
clients and thereby promote broader public interests in
the observance of law and administration of justice. ”)
Counsel's violation of this trust constitutes
constructive denial of assistance at a critical stage of the
trial, which allowed the prosecution to utilize privileged
information in the prosecution of their case throughout
the trial. By definition, this circumstance is the very
essence of a failure to subject the prosecution's case to
meaningful adversarial testing.
By issuing certiorari, this Court can establish
definitively the requirement that counsel must diligently
protect confidential documents whose disclosure would
result in a fundamental breakdown in the adversarial
process.

36
CONCLUSION
For the foregoing reasons, Petitioner respectfully
requests that this Court grant this petition for certiorari.
Respectfully submitted.
Warren E. Rosenfeld
Pro se Petitioner
5817 Kingsbrook Drive
Plano, Texas 75093
(214) 878-6240
werosenfeld@outlook.com
December 16, 2020

